  Office of Inspector General
       Audit Report

FAA NEEDS TO IMPROVE ATCOTS CONTRACT
MANAGEMENT TO ACHIEVE ITS AIR TRAFFIC
     CONTROLLER TRAINING GOALS

        Federal Aviation Administration

         Report Number: ZA-2014-018
        Date Issued: December 18, 2013
           U.S. Department of
                                                              Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA Needs To Improve ATCOTS                                        Date:    December 18, 2013
           Contract Management To Achieve Its Air Traffic
           Controller Training Goals
           Federal Aviation Administration
           Report No. ZA-2014-018

  From:    Mary Kay Langan-Feirson                                                 Reply to    JA-60
                                                                                   Attn. of:
           Assistant Inspector General for Acquisition and
             Procurement Audits

    To:    FAA Administrator


           The Federal Aviation Administration (FAA) plans to hire over 11,700 air traffic
           controllers through fiscal year 2021 to replace the large number of air traffic
           controllers that were hired after the 1981 strike and are now eligible to retire. In
           September 2008, FAA awarded Raytheon the $859-million Air Traffic Control
           Optimum Training Solution (ATCOTS) contract intended to provide up to
           10 years of controller training support and to assist in modernizing the Agency’s
           controller training program. Key ATCOTS contract goals include reducing total
           training costs, reducing training time, and developing training innovations that can
           be adapted to new technologies—particularly those related to the Next Generation
           Air Transportation System (NextGen).

           In September 2010, we reported on FAA’s weak acquisition practices and lack of
           effective contract oversight for the ATCOTS contract. 1 In its first 2 years, the
           ATCOTS contract exceeded negotiated contract values by $46 million, and the
           program did not achieve desired training goals.

           The Chairman of the Subcommittee on Financial and Contracting Oversight,
           Senate Committee on Homeland Security and Governmental Affairs, requested
           that we conduct a follow-up review of FAA’s ATCOTS contract to determine the
           Agency’s progress in addressing our prior recommendations as well as report on

           1
             FAA’s Air Traffic Controller Optimum Training Solution Program: Sound Contract Management Practices Are
           Needed To Achieve Program Outcomes (OIG Report Number AV-2010-126), Sept. 30, 2010. OIG reports are available
           on our Web site: www.oig.dot.gov.
                                                                                2


new issues. Consistent with the Chairman’s request, our audit objectives were to
determine whether FAA (1) has implemented changes to improve program and
contract oversight, (2) can achieve ATCOTS training goals under the current
contract, and (3) has established effective performance measures to support
ATCOTS training goals.

We conducted this review in accordance with generally accepted Government
auditing standards. To conduct our work we interviewed FAA officials, FAA’s
ATCOTS program and contracting officials, field facility and training managers,
FAA Academy managers, and the contractor for the ATCOTS contract. We also
reviewed the ATCOTS contract files, invoices, workforce plans, and award and
incentive fee documentation. See exhibit A for more details on our scope and
methodology.


RESULTS IN BRIEF
FAA has taken actions to address 8 of 9 recommendations from our prior
ATCOTS audit. Since our last audit FAA has also taken some steps to better
assess training needs, such as implementing use of an Annual Work Plan (AWP)
and enhanced program management tools to better prioritize where training is
needed. FAA also consolidated training operations under the Office of the Vice
President of Safety and Technical Training in order to bring increased
management attention to the training program. However, our current review has
found that weaknesses in program and contract management still persist. For
example, FAA did not address our September 2010 recommendation to assess its
training needs before extending the ATCOTS contract. After 4 consecutive years
of cost overruns, totaling about $89 million, FAA exhausted the contract’s 5-year
base funding 1 year earlier than planned. To continue training support when the
base period funding ran out, FAA chose to exercise the contract’s first 3-year
option period 1 year ahead of time—without first clearly defining its training
requirements or developing criteria for determining whether to exercise the
contract options. FAA has also not fully identified its total training costs. For
example, the contractor reduced its staffing by 44 percent to prevent further cost
overruns on the ATCOTS contract; however, this required FAA’s air traffic
controllers to perform more internal training—a cost FAA has not quantified.
Finally, FAA has not made sufficient improvements to its oversight controls or
contract administration. For example, ATCOTS contracting staff experienced
frequent turnover, yet FAA did not maintain a complete contract file, which
prevents newer staff from readily accessing and understanding the contract’s
history.
                                                                                    3


FAA has not been able to achieve half of its training goals under the current
ATCOTS contract. Specifically, FAA has not met its goal to reduce controller
training times, and the ATCOTS program has not produced sufficient training
innovations. Between fiscal years 2009 and 2012, the time to certify controllers
increased by an average of 41 percent—taking 9 months longer on average to
certify each controller. While the contractor proposed ideas for training
innovation, FAA has not provided sufficient funds to implement them because the
Agency obligates less than 2 percent of the ATCOTS base contract value for
training innovations. Without innovations to create a more flexible training
system, the arrival of future NextGen technologies may create significant training
backlogs, especially at larger facilities. Finally, it is unclear whether FAA has met
its goal to reduce training costs because the Agency has not measured its progress
toward this goal.

FAA’s ATCOTS performance measures—which are criteria the contractor must
meet to earn award fees—have not been effective at motivating the contractor to
meet contract goals. In addition, ATCOTS includes an incentive fee, which has
not been effective to motivate the contractor to manage costs. Our review
identified weaknesses in both the ATCOTS award and incentive fee structures for
the base contract period of performance and the award fee structure for the first
option year. Over the life of the contract, FAA has paid the contractor over
$17 million in award fees for performance measures that do not motivate the
contractor to achieve FAA’s key training goals. FAA has also paid $14 million in
incentive fees that were ineffective at reducing contract spending.

We are making a series of recommendations for improving FAA’s oversight of the
ATCOTS contract.


BACKGROUND
The ATCOTS contract is a hybrid contract, including cost-plus-incentive-fee
(CPIF), cost-plus-award-fee (CPAF), and firm-fixed-price components. The
ATCOTS contract is also performance-based and consists of a 5-year base period,
worth $437 million, and two option periods (a 3-year period and a 2-year period),
worth $422 million.

Under the terms of the contract, the contractor (Raytheon) provides classroom and
simulator instruction, course and curriculum development, and administrative and
program support services at the FAA Academy and air traffic facilities nationwide,
primarily for new controllers. The contractor must also train Certified Professional
Controllers in Training (CPC-IT)-controllers who are already certified but require
site-specific training when they transfer to different facilities or move to different
areas within a facility. In addition, the contractor provides proficiency and
                                                                                                                        4


specialized training to Certified Professional Controllers (CPC). FAA retains
control for the overall training program as well as for recruiting and hiring
controller candidates and conducting on-the-job training (OJT) 2 at air traffic
facilities.

Air traffic controller training begins with the recruitment of a new hire and
continues through three phases: Academy Training, Field Training, and OJT. New
hires attend the FAA Academy where students gain foundational air traffic
controller knowledge. After graduating from the FAA Academy, new hires
proceed to their assigned facilities for Field Training, which involves classroom
and lab instruction, and OJT, from which point they are referred to as a
“developmental.” Developmental controllers begin facility training in the
classroom, where they learn facility-specific rules and procedures. Often, these
rules and procedures are practiced in simulation. After classroom and simulation
training are complete, developmental controllers begin OJT, which is conducted
by CPCs who observe and instruct developmental controllers one-on-one while
working the control position. Developmentals must pass certification skill checks
on each operational position of their assigned area to reach CPC status.

On September 30, 2010, we issued our first audit report on FAA’s ATCOTS
contract and training program. We reported that, in its first 2 years, the ATCOTS
contract exceeded negotiated contract values by $46 million, and the program did
not achieve desired training goals. We made 9 recommendations to improve
contract oversight. In the current review we focused on actions FAA has taken
since our September 2010 report.


FAA HAS NOT IMPLEMENTED SUFFICIENT CHANGES TO
IMPROVE PROGRAM AND CONTRACT OVERSIGHT
FAA has addressed 8 of the 9 recommendations from our prior ATCOTS audit
and has recently taken additional steps to improve oversight of the contract.
Despite these improvements, our current review continued to find weaknesses in
program and contract oversight. Specifically, FAA did not address our September
2010 recommendation to assess its training needs before extending the ATCOTS
contract. FAA also has not fully quantified its total training costs, clearly defined
its training needs, or determined how much training will be delivered by either the
contractor or by FAA. Finally, FAA has not made sufficient improvements to its
oversight controls and contract administration since our last review.




2
    OJT is training that occurs when a developmental is directing live traffic in the National Airspace System (NAS).
                                                                                       5




      FAA Did Not Address Our Recommendation To Assess Its Training
      Needs Before Extending the ATCOTS Contract
      FAA has addressed 8 of 9 recommendations from our prior ATCOTS audit and
      has also taken some steps to better assess training needs, such as implementing
      enhanced program management tools to better prioritize where training is needed.
      However, FAA did not address our prior recommendation to assess whether the
      ATCOTS contract would meet its long-term needs before the end of the contract
      base period in 2013. Specifically, we previously recommended that FAA
      determine (1) if the existing contract mechanism could be effectively modified to
      achieve ATCOTS program goals within the original contract estimate of
      $859 million or (2) update the cost estimates and requirements for its training
      needs and develop criteria for determining whether the Agency should exercise
      options in the contract. FAA has taken some steps to better assess its training
      needs, such as re-instituting use of an AWP. However, this plan does not include
      all training that the contractor is required to deliver. Due to the lack of clearly
      defined requirements, the ATCOTS program experienced 4 consecutive years of
      cost overruns, totaling about $89 million. To compensate for annual funding
      shortages, FAA reallocated funding from future contract years to meet the current
      year’s rising costs. As a result, FAA prematurely exhausted the contract’s 5-year
      base funding in only 4 years (see figure 1) without conducting the analysis we
      recommended in our prior report.

      Figure 1. ATCOTS Program Exhausted Its 5-Year Base Contract
      Funding in 4 Years
                     Planned base                 Total spent
                    period spending:              in 4 years:
                    $437,068,359               $437,010,720
           $500
Millions




                                                             By end of
           $400            CY 5                     CY 4     year 4,
                                                             almost no
                                                             funding was
           $300            CY 4                              left for year 5.
                                                    CY 3

           $200            CY 3                              By end of year
                                                             2, FAA had
                                                    CY 2     already spent
                           CY 2                              half the base
           $100                                              period funding.
                           CY 1                     CY 1
             $0
                  Original contract values   Actual amounts spent



      Source: OIG analysis of FAA contract data
                                                                                 6


To continue training support when the base period funding ran out, FAA chose to
exercise and begin the contract’s first 3-year option period 1 year ahead of time,
which reduces the contract’s total period of performance by 1 year. According to
FAA’s Vice President for Safety and Technical Training, exercising the first
option would allow FAA to redefine contract terms, return to an acceptable
expenditure level, and change the cost incentives. FAA’s Acting Administrator
also stated that exercising the first contract option would allow for uninterrupted
training services. Federal acquisition policies do not forbid early exercise of an
option; however, FAA made this decision without updating cost estimates and
training requirements or developing adequate criteria for determining whether the
Agency should exercise the contract options.

FAA Does Not Know Its Total Training Costs
FAA has not fully quantified its total training costs and thus could not determine
whether exercising the first contract option would meet long-term training goals
more effectively than other alternatives—such as rebaselining or recompeting the
contract. Two factors currently impede FAA’s ability to accurately estimate its
training costs. First, FAA has not clearly defined its training requirements.
Second, FAA has not determined how much training will be delivered by either
the contractor or by FAA’s Certified Professional Controllers, known as CPCs. It
will be difficult for FAA to effectively manage its training costs without an
accurate cost estimate, clearly defined requirements, or a specific plan that
clarifies who will deliver those requirements.

FAA Has Not Clearly Defined Its Training Requirements
In September 2010, we reported that the ATCOTS program’s cost overruns
occurred largely because FAA greatly underestimated its training needs. At the
time, we reported that FAA’s AWP—a tool for identifying and reporting training
needs to the contractor—did not adequately capture FAA’s training requirements.
For example, FAA did not include training for its Certified Professional
Controllers in Training, referred to as CPC-ITs, in its original training estimate.
Since that review, FAA instituted additional controls to capture training
requirements and costs. For example, FAA increased its use of the AWP and
created a tool to better verify training hours being incurred at field locations.

While FAA has made some improvements to the AWP, it still does not capture all
of the Agency’s training requirements. For example, the AWP now defines the
number and types of students, student training levels, training locations, and the
dates by which students must be trained. However, the AWP does not sufficiently
capture the different training needs of developmental controllers and CPC-ITs.
CPC-ITs generally do not need foundational courses or as much simulator time as
developmental controllers because CPC-ITs have already been certified at a
                                                                                                               7


previous facility. Even though the total number of controllers-in-training 3 has
generally declined in recent years (see figure 2), the proportion of developmental
controllers to CPC-ITs has changed dramatically. Between 2009 and 2012, the
number of developmental controllers decreased by 40 percent—from 3,602 to
2,167. During the same period, the number of CPC-ITs almost doubled—from 606
to 1,143. Given this trend, it is possible that the number of instructor hours used to
train CPC-ITs has increased while the amount of more intense training needed by
developmental controllers has decreased. However, the AWP does not capture this
level of detail, so the Agency has not determined how this changing trend in
experience level impacts its overall training requirements.

Figure 2. Total Numbers of Developmental Controllers and
CPC-ITs by Fiscal Year
    5,000
                                   CPCITs      Developmentals
              4,208
                               3,929
    4,000
                                                     3,597
                                                                3,310
    3,000

              3,602            3,234                 2,632      2,167
    2,000


    1,000

               606              695                   965       1,143
       0
              2009             2010                  2011       2012
                                       Fiscal Year
Source: FAA

Further, the AWP does not capture proficiency training requirements for both new
and existing systems used by air traffic controllers 4—even though this type of
training is within the scope of the contract. Without clearly defined training
requirements that include all of FAA’s training needs, FAA cannot reasonably
estimate its training costs or effectively manage them.




3
 The number of controllers-in-training includes developmental controllers that are not yet certified and CPC-ITs.
4
 These systems include En Route Automation Modernization (ERAM), Standard Terminal Automation Replacement
System (STARS), and Automatic Dependent Surveillance-Broadcast (ADS-B).
                                                                                   8



FAA Has Significantly Reduced Contractor Staffing but Has Not Accounted
for the Costs of Using CPCs To Perform Training.
To limit future cost overruns on the ATCOTS contract, FAA directed the
contractor to significantly reduce contractor training staff. Between September
2008 and August 2012, the contractor reduced its staffing numbers by about
44 percent—from 1,312 to 738 employees. To compensate for this reduction, FAA
is planning to increase the amount of internal training performed by its CPCs.
While FAA collects data on the amount of OJT conducted internally by CPCs (for
which FAA is responsible), it does not track or keep records showing other
internal training costs, such as hours that CPCs spend teaching classroom and
simulator training.

As a result, FAA cannot determine how much it spends on internal training or
assess whether there might be a more cost-efficient way to provide training to its
air traffic controllers. FAA acknowledged that the contractor can provide training
at a lower cost than FAA’s CPCs, as CPCs are paid higher salaries than contractor
staff. Training managers at FAA facilities also stated that CPCs may need to
accrue overtime hours to provide training while maintaining operations.

Moreover, FAA has not collected data on whether facilities have the capacity to
provide internal training, especially at high-traffic facilities. According to the
ATCOTS program office, CPCs will be able to perform the needed internal
training because decreases in both hiring and retirement rates have reduced the
Agency’s overall training needs. However, the program office could not provide
data to support this assertion. According to our interviews with FAA facility
managers, fewer than half of the 13 air traffic facilities we contacted are capable
of providing internal training, given current staffing levels and workload demands.

FAA Has Not Made Sufficient Improvements to Its Oversight Controls
or Contract Administration
In September 2010, we reported that FAA did not have effective oversight
controls in place to monitor contractor services. Specifically, FAA did not have
controls in place to ensure it received services as billed by the contractor, such as
requiring documentation for costs claimed. During the first year of the contract,
the ATCOTS program office authorized payment for 11 contractor invoices
totaling $45 million, without the FAA Academy verifying whether the services
billed were actually provided. Since our prior review, FAA has made some
improvements to its oversight controls and contract administration. This is a step
in the right direction. For example, FAA reorganized and consolidated training
operations under the Office of the Vice President of Safety and Technical
Training, which is intended to bring increased management attention to the
                                                                                                                    9


training program. FAA also implemented a program management tool to better
prioritize where training is needed.

In addition, an FAA program representative stated that the Agency has
implemented the following improvements in contract management:

• Implemented monthly Performance and Cost Boards to monitor unplanned
  events and better measure contractor performance; and

• Required the contractor to revise its Work Breakdown Structure (WBS) 5 to
  provide more detail about the costs associated with the work performed and
  improved the invoice review process; and

• Required that the contractor reorganize its field management structure to better
  align terminal and en route services to reduce inefficiency.

Despite these actions, some weaknesses we reported in 2010 continue to exist. For
example, FAA still does not hold oversight staff accountable for conducting
required semiannual evaluations of the quality of services provided by contractor
personnel. As we reported in September 2010, the lack of evaluations prevents the
program office from identifying problems with contractor performance and taking
appropriate corrective actions. In September 2010, we also reported that FAA did
not have qualified acquisition personnel to administer the ATCOTS contract. In
our current review, we determined that FAA has completely re-staffed its program
office and contract management office with new employees, including the
program manager, contracting officer (CO), and contracting officer representatives
(COR). 6 However, at the time of our review, the contract identified two
contracting officers: one supervisory CO with an appropriate certification and
warrant and another CO that handled day-to-day contract administration but who
did not have the certification required by AMS to administer the $859-million
contract. 7 The CO performing day-to-day administration of the contract was in the
process of completing certification training. However, allowing COs to manage
contracts above their certification level puts the Government at risk that COs lack
the expertise required to manage larger and potentially more complex contracts. In
August 2012, the CO obtained the required level III certification and an unlimited
warrant in September 2012—more than a year and a half after becoming the CO
for ATCOTS.



5
  A WBS is the hierarchically structured grouping of project elements that organizes and defines the total scope of the
project. Each descending level is an increasingly detailed definition of a project component.
6
  The COR was formerly known as the Contracting Officer’s Technical representative (COTR).
7
  According to FAA’s Acquisition Management System, a CO must apply for, acquire, and maintain certification at the
appropriate level for the work performed.
                                                                                                                      10


In February 2013, only 6 months after the CO obtained the required certification,
FAA assigned a new CO to the ATCOTS contract—the sixth CO since the
contract was awarded. FAA has also experienced high turnover with other critical
program staff; for example, the ATCOTS program has had four program managers
and eight CORs over the life of the contract. 8 For programs with high turnover, a
complete contract file is especially important to maintain institutional knowledge.
However, FAA has not adequately maintained its contract files, which exist in two
separate locations—one physical file and one virtual file—and do not contain a
complete history of all contract actions required by FAA’s Acquisition
Management System (AMS). 9 For example, the CO had to request official contract
documentation directly from the contractor because FAA’s contracting staff did
not maintain those documents in the ATCOTS contract files. Incomplete contract
files prevent newer staff from readily accessing and understanding the contract’s
complete history.

Finally, communication between FAA Headquarters and the field facilities has not
been effective. In many cases, the training managers and oversight staff in the
field did not know who managed the ATCOTS program and were not always
provided with detailed guidance. For example, we asked managers at 13 facilities
how they were notified of the significant reduction in contractor staffing that
occurred in July 2012. Managers at six facilities told us that the ATCOTS program
office communicated the staffing reductions through teleconference, four facilities
were notified by their service area representatives, and two were notified by the
contractor. 10


FAA HAS NOT BEEN ABLE TO ACHIEVE ALL OF ITS KEY
TRAINING GOALS UNDER THE ATCOTS CONTRACT
The ATCOTS contract outlines six key training goals: (1) improve quality and
consistency of training, (2) reduce training costs, (3) reduce training time, (4)
leverage best practices and innovation to provide comprehensive training, (5)
develop flexible training that can be adapted to meet changing requirements, and
(6) develop flexible training that can be adapted around candidate competencies.
We focused our review on three of the ATCOTS goals: reducing training costs,
reducing training time, and developing innovation to provide comprehensive

8
  In addition, until we brought it to FAA’s attention, the contract was not modified to identify changes in key positions
such as the CO and COR. It is important to update these key positions to ensure that the contractor is aware of those
representing the agency.
9
  According to AMS, documentation in the files should provide a sufficiently complete history of the transaction and
(1) provide a complete background as a basis for informed decisions at each stage in the acquisition process, (2)
support actions taken, (3) provide information for reviews and investigations, and (4) furnish essential facts in the event
of litigation or congressional inquiries.
10
   One facility did not have Raytheon support.
                                                                                11


training. We found that FAA has not been able to achieve the goals to reduce
training time or leverage innovation to provide comprehensive training, and it has
not assessed whether it has reduced training costs.

FAA Has Not Accomplished Its Goal To Reduce Training Time
A primary goal of the ATCOTS contract is to reduce the time it takes for a
developmental to become a CPC. Between fiscal years 2009 and 2012, the time to
certify controllers increased by an overall average of 41 percent—taking 9 months
longer on average to certify each controller. Time to certify increased the most at
terminal facilities with an average increase of 57 percent, or almost 11 months
longer on average to certify controllers. Figure 3 shows the increase in average
training times between fiscal years 2009 and 2012.

Figure 3. Average Time To Certify Controllers Between Fiscal
Years 2009 and 2012
 Years
                                                            En Route
   3
                                                     3.07
                                       2.89                 Overall
                            2.66                     2.68
                                                            Terminal
                                       2.51
            2.43                                     2.42
                                       2.28
   2                        2.21

             1.9            1.95


            1.54


   1
            2009            2010       2011          2012


Source: FAA training data

Air traffic and training managers have attributed the increased training times to
several factors, such as airspace redesign, new technology training, increased
proficiency training and refresher training for CPCs in response to changes in
regulations, and decreased contractor support resources.

FAA facility managers we spoke to at 9 of 13 facilities warned that contractor
staffing reductions will result in increased internal training taught by CPCs,
increased overtime, and training delays. Contractor reductions have prompted
some facilities, such as Las Vegas Tower, to plan to reduce simulator training,
which facility training managers stated may further increase controller training
times. Simulators help train not only developmental controllers but also the entire
                                                                                 12


controller workforce—especially on new major systems or new procedures.
However, simulators rely heavily on contractors to build simulation scenarios, and
eight of the facility managers we spoke to reported that they did not have enough
FAA staff to support simulator training on their own.

FAA Has Not Accomplished Its Goal To Achieve Training Innovations
Since our last review, the ATCOTS contract has not resulted in significant training
innovations. The ATCOTS contract’s performance work statement specifies that a
key goal of the contract is to develop new training technologies and procedures to
meet the changing environment in which controllers operate. Training innovations
were also intended to further other key training goals, such as reducing time to
train and reducing training costs. While the contractor has proposed ideas for
training innovation, FAA has not provided sufficient funds to implement them, as
the Agency has budgeted less than 2 percent ($16.7 million) of the ATCOTS base
contract value ($859 million) for training innovations.

The lack of training innovations is significant because the contractor’s cost
proposal—which was nearly $358 million lower than FAA’s independent
Government cost estimate—was based on the assumption that it could reduce
training hours by 30 percent and, therefore, reduce costs. Innovating training can
help achieve such cost efficiencies. However, the contractor stated that FAA has
rejected the majority of the 11 proposals it has submitted for training innovations.
FAA officials told us that the contractor’s process improvement and training
innovation proposals have been technically deficient and costly. Without training
innovations to create a more flexible training system, the arrival of future NextGen
technologies may create significant training backlogs, especially at larger
facilities.

FAA Has Not Assessed Whether It Has Reduced Training Costs
It is unclear whether FAA has met its goal to reduce air traffic controller training
costs because the Agency has not tracked its progress toward this goal.
Specifically, FAA does not collect data on the total costs of the training program,
including all internal training conducted by CPCs, so it is unclear whether the
Agency has reduced total training costs. However, the program’s funding
challenges—including 4 consecutive years of cost overruns, FAA’s decision to
exercise the first contract option early, and the major reductions in contractor
staffing—demonstrate that the training program has cost FAA significantly more
than estimated at contract award.
                                                                                  13


FAA’S PERFORMANCE MEASURES AND FEE STRUCTURE
HAVE NOT BEEN EFFECTIVE
FAA’s ATCOTS performance measures—which are criteria the contractor must
meet to earn award fees—have not been effective at motivating the contractor to
achieve desired outcomes. In addition, ATCOTS includes an incentive fee, which
has not been effective to motivate the contractor to manage costs. Our review
identified weaknesses in both the ATCOTS award and incentive fee structures for
the base contract period of performance and the award fee structure for the first
option year. As a result, FAA has paid the contractor over $17 million in award
fees for performance measures that do not motivate the contractor to achieve
FAA’s key training goals. FAA has also paid $14 million in incentive fees that
were ineffective at reducing contract spending.

Base Contract Period of Performance (Contract Years 1 Through 4)
The ATCOTS contract allows the contractor to earn both incentive fees and award
fees for containing costs, a practice that is not consistent with FAA’s AMS
guidance. The AMS states that care needs to be exercised on multiple-incentive
arrangements—such as ATCOTS’ CPIF/CPAF type—to ensure that combinations
of cost control incentive fees and award fees do not result in contractors making
trade-off decisions inconsistent with FAA objectives and performance priorities.
In addition, FAA’s Award Fee Contracting Guidance states that no performance
element should be incentivized more than once. For example, if a separate cost
incentive is used in a contract, then cost should not be incentivized in the award
fee. Despite this guidance, FAA offers the contractor both incentive fees and
award fees for containing costs—neither of which were effective at controlling
ATCOTS’ contract costs during the base contract period of performance.

The incentive fees were not effective at controlling costs because FAA did not
establish accurate cost targets. FAA’s AMS states that an incentive fee should be
used when a reasonable and attainable cost target can be established that is likely
to motivate the contractor to manage effectively. However, because FAA was
unable to clearly define its training requirements, it could not establish accurate
cost targets for the incentive fee. Additionally, FAA did not establish or revise
cost targets until near the end of the year—too late to prevent cost overruns for the
year in question. Ultimately, FAA paid the contractor a total of $19 million in cost
incentives—which include about $14 million in incentive fees and $5 million in
cost-related award fees—despite $89 million in cost overruns.

We also identified weaknesses in FAA’s use of award fees. During the base
period, FAA paid the contractor 93 percent ($17.3 million) of the available award
fees for meeting performance measures that did not motivate the contractor to
                                                                                   14


achieve FAA’s training goals. For example, FAA paid the contractor a portion of
the award fee for meeting a performance measure related to staffing efficiency,
which called for the contractor to stay within a set range of staffing hours.
However, the contractor stated that it was not motivated to optimize staffing or
lower staffing costs because any efforts to reduce staffing below the set range of
hours would have lowered its award fee in this category.

The performance measures for the award fees also did not link to FAA’s key goals
to reduce the time to train controllers or develop training innovations. According
to the CO, it is difficult to include award fee criteria on training innovations when
the contractor has not proposed new innovations. The CO stated that FAA could
add award fee criteria for training innovations when the contractor submitted
additional proposals. However, in order to adequately motivate the contractor to
develop training innovation proposals, award fee criteria should be in place before
the performance period begins.

First Option Year
In the first year of the option period, beginning September 2012, FAA introduced
a new award fee structure for containing costs, but it lacked performance measures
to motivate the contractor to reduce training time and develop training
innovations. FAA’s new award fee structure specifies that FAA will not pay the
contractor any award fees (1) if contract costs exceed the contract cost target or (2)
if the contractor does not deliver sufficient training. For the first award fee
evaluation period under this new fee structure, the cost of work performed stayed
within budget. However, in April 2012 FAA had asked the contractor to reduce
staffing for the remainder of the year to stay within the contract ceiling amount.
As a result, contractor staffing levels decreased by about 30 percent. According to
FAA’s award fee evaluation, the contractor did not receive any award fees during
the first option period because it did not deliver sufficient services to FAA
facilities according to requirements in the AWP. Therefore, while the contractor
controlled costs, it appears this came at the cost of losing adequate training
support.

Our review demonstrates that FAA’s incentive and award fees have not been
effective at controlling costs or motivating performance over the life of the
ATCOTS contract. FAA’s incentive and award fee measures either have not been
effective or have incentivized the contractor to perform in a manner that does not
achieve contract goals. As a result, we estimate that over $14.1 million of funds
could be put to better use if FAA eliminates the cost incentive fees and uses a cost-
                                                                                                                     15


plus-award-fee contract with improved performance measures that relate to the
ATCOTS training goals. 11

Despite the shortcomings with ATCOTS performance and the cost overruns, FAA
has yet to perform an integrated baseline review (IBR) of the ATCOTS program.
An IBR can help agencies pinpoint problems and make decisions on the amount of
services required and the associated funds needed to obtain them. Specifically, an
IBR examines whether (1) all program requirements have been addressed, (2) all
risks have been identified and appropriate mitigation plans are in place, (3) and
planned resources are sufficient to complete the work. Without an IBR, it will be
difficult for FAA to determine whether it can achieve its air traffic controller
training goals under the current ATCOTS contract.


CONCLUSION
A sufficient and adequately trained air traffic controller workforce is critical to
maintaining the safety of the traveling public and air commerce. However, under
the ATCOTS contract, FAA has not achieved key air traffic controller training
goals. FAA has made some improvements to its administration of the contract,
such as implementing a program management tool to better prioritize where
training is needed. However, unless FAA improves program and contract
management, clearly defines its training requirements, develops training
innovations, modifies its fee structure to better motivate the contractor to meet or
exceed desired outcomes, and reviews the ATCOTS program’s baseline, the
Agency will miss opportunities to achieve program goals, incentivize
performance, and save taxpayer dollars. Specifically, we estimate that over
$14.1 million of funds could be put to better use if FAA modifies its fee structure
as recommended. Without an effectively managed contract to support its controller
training requirements, FAA runs the risk of not maintaining a sufficient cadre of
certified controllers to meet the future demands of the NAS.


RECOMMENDATIONS
We recommend that FAA’s Vice President for Safety and Technical Training, Air
Traffic Organization:

1. Create a training plan that clearly defines all air traffic controller training
   requirements, including proficiency training and training for new systems.
   The plan should also specify the training requirements to be performed by


11
  The $14.1 million in funds put to better use includes $6.7 million in incentive fees and $7.4 million in award fees for
years 2 and 3 of the first option period.
                                                                                16


    FAA certified professional controllers and those to be performed by the
    contractor.

2. Implement a procedure to identify costs related to internal training performed
   by FAA controllers, such as a timekeeping code to record hours that
   controllers spend teaching classroom and simulator training, including any
   overtime hours accrued for training.

3. Develop a plan to assess internal resources and verify that controllers will be
   available to teach training at each facility.

4. Update cost estimates, and determine whether (a) training requirements can be
   met within the current contract value of $859 million, (b) the acquisition
   should be rebaselined and/or recompeted, or (c) the remaining contract
   options should be exercised.

5. Implement procedures to hold FAA oversight staff accountable for overseeing
   contractor performance at the facilities, including completing required semi-
   annual performance evaluations.

6. Develop a process to ensure the contract files are maintained as required by
   FAA’s Acquisition Management System.

7. Determine whether training innovations should be funded under the ATCOTS
   contract or competed under a separate contract, and modify the ATCOTS
   contract to reflect this determination.

8. Determine whether FAA should eliminate the cost incentive fee and modify
   the contract to a cost-plus-award-fee type.

9. Modify the award fees to (a) develop performance measures that motivate
   contractors to achieve program goals and (b) ensure that fees are paid only for
   performance that links to key training goals and does not conflict with other
   contract objectives.

10. Perform an integrated baseline review to (a) identify the training requirements
    that should be included in the budget baseline; (b) identify the risks for
    maintaining the budget and plans for adequately mitigating those risks; and (c)
    determine whether resources are sufficient for completing the work.
                                                                                                                17



AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on September 5, 2013, and received its
response on November 27, 2013, which is included as an appendix to this report.
In its response, FAA concurred with 9 of our 10 recommendations and partially
concurred with 1.

For recommendations, 1, 5, and 7, FAA concurred and has taken or proposed
planned actions that address the intent of our recommendations. Accordingly, we
consider these recommendations resolved but open pending verification that
corrective actions are complete. However, we request that FAA submit planned
completion dates for recommendations 5 and 7.

For recommendations 2, 3, 4, 6, 8, 9 and 10, FAA either concurred or partially
concurred. However, we are requesting additional information before we can
determine if FAA’s planned actions address the intent of our recommendations.
We also request that FAA submit planned completion dates for these
recommendations. Specifically:

For recommendation 2, FAA concurred and stated that its Reports, Analysis, and
Distribution (RAD) system 12 has captured internal training costs since 2005.
However, during our discussions with FAA field training managers, we found that
field facilities did not include the time that controllers spend conducting formal
classroom training or simulator training. In addition, FAA only has job codes for
recording OJT hours and costs 13 and does not have codes for recording time spent
on ATCOTS-related training activities, such as conducting classroom or simulator
training. Moreover, FAA lacks procedures to instruct controllers on which codes
to use to account for ATCOTS-related training. Accordingly, we are requesting
that FAA clarify whether it plans to establish job codes and accounts to capture the
time controllers spend providing classroom, simulator, and other ATCOTS-related
training—and procedures to instruct controllers on which codes to use to account
for ATCOTS-related training. We also request that FAA submit a planned
timeframe to complete these actions. Until we receive this information, we
consider recommendation 2 open and unresolved.

For recommendation 3, FAA concurred and stated that it already has a plan to
assess internal resources, citing its Controller Workforce Plan and FAA Order JO
3120.4N. However, it is unclear whether these are sufficient to assess internal

12
   RADS is a web-based application developed solely to provide reports for the data contained in FAA source systems,
such as its Cost Accounting System Reports and Labor Distribution Reports.
13
   OJT is not included as a requirement of the ATCOTS contract. OJT involves managing live air traffic and begins
after ATCOTS-related classroom and simulator training is completed.
                                                                                  18


resources, as well as ensure that controllers will be available to teach training.
During the course of our review, training officials at some FAA facilities stated
that they lacked available or qualified resources to conduct this training.
Accordingly, we request that FAA clarify how the Agency will (a) identify
qualified controllers available to teach training at each facility and (b) identify
facilities that lack internal resources capable of performing ATCOTS-related
training. We also request that FAA submit a planned timeframe to complete these
actions. Until we receive this information, we consider recommendation 3 open
and unresolved.

For recommendation 4, FAA concurred and stated that it is taking actions to
remain within the $859 million contract value, such as submitting discrete training
demands to the contractor. While these actions may be effective to manage
contract costs in the short term, FAA stated in its response that it plans to award a
new contract to replace ATCOTS as early as fall 2014. To plan for this future
award, it would be prudent for FAA to identify its annual training requirements—
including requirements for its next controller training contract—to ensure that it
has sufficient contractor and internal resources to meet its controller training
needs. Accordingly, we request that FAA provide additional information on
whether it plans to identify its annual training requirements, including
requirements for its next controller training contract. We also request that FAA
submit a planned timeframe to complete this action. Until we receive this
information, we consider recommendation 4 open and unresolved.

For recommendation 6, FAA concurred and stated that it has compiled a complete
ATCOTS contract file. However, FAA did not clarify the process it will use to
ensure that the contract file will be maintained going forward, as we had
recommended. Until we receive this information, we consider recommendation 6
open and unresolved. We also request that FAA submit a planned timeframe to
complete this action.

For recommendation 8, FAA concurred but determined that the ATCOTS contract
should remain an incentive fee-based contract. According to FAA, the incentive
fee provisions of the contract are the best means to encourage the contractor to
reduce costs. Therefore, FAA did not agree with our estimate that over
$14.1 million in funds could be put to better use if FAA eliminates the cost
incentive fees and uses a cost-plus-award-fee contract with improved performance
measures that relate to the ATCOTS training goals. However, as we stated in our
report, FAA’s incentive fees have been ineffective because the Agency continually
increased cost targets as requirements grew. As a result, FAA paid $14 million in
incentive fees to the contractor despite 4 consecutive years of cost overruns,
totaling about $89 million. Moreover, we determined that FAA offered cost
incentive fees as well as cost-related award fees, which is contrary to FAA
                                                                               19


guidance. If FAA decides to retain the incentive fee portion of the contract, we
request that FAA clarify how it will ensure the incentive fees and cost-related
awards fees will not conflict. We also request that FAA submit a planned
timeframe to complete this action. Until we receive this information, we consider
recommendation 8 open and unresolved.

For recommendation 9, FAA concurred and stated that its award fee for period 8
performance measures were sufficient to close our recommendations. However,
FAA did not provide sufficient information to demonstrate that these actions
address our recommendation. As we reported, FAA performance measures for the
first year of the option period did not motivate the contractor to achieve two key
goals: reduce training time and develop training innovations. FAA also stated in
its response that it provided us with its draft performance measures for award fee
period 8 for our approval. Although we conducted a limited review of these new
performance measures to determine whether they link to contract goals, we did not
approve them because it would be inappropriate for us to do so. We request that
FAA provide additional information on whether it intends to develop performance
measures to address these two goals and provide a timeframe for completing these
measures. Until we receive this information, we consider recommendation 9 open
and unresolved.

For recommendation 10, FAA partially concurred, stating that the Program Office
does not believe that there are any benefits from undertaking an integrated
baseline review (IBR) at this time. However, an IBR involves a comprehensive
review of training requirements and the establishment of a baseline—both of
which will be essential for FAA to avoid repeating the problems with ATCOTS
when it awards its next controller training contract. If FAA takes actions to
address recommendations 1 and 4, it will help the Agency to develop a baseline
more effectively. Accordingly, we request that FAA reconsider performing a
baseline review, which should be completed before the Agency solicits proposals
for a new training contract and provide information on how it will address our
recommendation. We also request that FAA submit a planned timeframe to
complete these actions. Until we receive this information, we consider
recommendation 10 open and unresolved.


ACTIONS REQUIRED
FAA’s planned actions for recommendations 1, 5, and 7 are responsive, and we
consider them resolved but open pending completion of the planned actions. We
consider recommendations 2, 3, 4, 6, 8, 9 and 10 open and unresolved. In
accordance with Department of Transportation Order 8000.1C, we request that
FAA provide additional information regarding its planned actions for those
                                                                             20


recommendations as described above. We also request that FAA submit planned
completion dates for recommendations 2, 3, 4, 5, 6, 7, 8, 9 and 10.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-5225; or Terry Letko, Program Director, at (202) 366-1478.
                                       #

cc:   DOT Audit Liaison (M-1)
      FAA Audit Liaison (AAE-100)
                                                                                 21




EXHIBIT A. SCOPE AND METHODOLOGY
We conducted our work from February 2012 through September 2013 in
accordance with generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

To conduct our work, we interviewed officials from Raytheon’s ATCOTS
program office, FAA’s ATCOTS program office and contracting office, and other
FAA Headquarters offices—including Labor Analysis, Technical Training and
Safety, Project Planning and Contract Group, and Curriculum and Technology
Group. We also interviewed FAA training managers, contracting officer’s
representatives, facility staff, Raytheon staff, National Air Traffic Controllers
Association officials, and Professional Association of Aeronautical Center
Employees representatives at the FAA Training Academy in Oklahoma City, OK,
and at 13 of the 315 air traffic facilities nationwide. For this follow-up audit, we
covered locations visited during our prior ATCOTS audit. Exhibit B lists all
organizations we contacted during this audit. We also reviewed the ATCOTS
contract files, which at the time of our review had 85 contract modifications,
related documentation, and FAA’s AMS.

To determine whether FAA has implemented changes to improve program and
contract oversight, we assessed FAA’s internal controls for the program, including
determining whether FAA adequately addressed the problems and
recommendations identified in our September 2010 report and evaluating FAA’s
oversight of contractor performance. We also assessed FAA’s invoice review
process using of the 94 total invoices: (1) the 10 highest dollar value invoices not
already reviewed in the previous ATCOTS audit to test invoice processing and
adequate support for contractor expenses, and (2) 62 invoices from contract years
2, 3, and 4 because they were complete enough to test payment timeliness
according to the Prompt Payment Act.

To determine whether FAA can achieve ATCOTS training goals under the current
contract, we evaluated FAA’s process for identifying training requirements and
contract costs. We analyzed training and staffing data provided by FAA. We also
assessed the effect of cost overruns and contractor staffing reductions on FAA’s
ability to meet its training goals.

To determine whether FAA has established effective cost incentives and award
fees to support ATCOTS training goals, we reviewed the target costs, performance


Exhibit A. Scope and Methodology
                                                                             22


measures, and fees paid for all seven performance periods since the award of the
ATCOTS contract.

We discussed issues relevant to this audit at a December 2012 exit conference
with senior FAA officials.




Exhibit A. Scope and Methodology
                                                                23




EXHIBIT B. ACTIVITIES VISITED OR CONTACTED

FAA Facilities
FAA Headquarters
FAA Training Academy at the Mike Monroney Aeronautical Center
Atlanta Air Route Traffic Control Center
Atlanta Air Traffic Control Tower
Atlanta Terminal Radar Approach Control Center
Jacksonville Air Route Traffic Control Center
Las Vegas Air Traffic Control Tower
Las Vegas Terminal Radar Approach Control Center
North Las Vegas Air Traffic Control Tower
Oakland Air Route Traffic Control Center
Oakland Air Traffic Control Tower
Oakland District Office/Training Facility
Potomac Terminal Radar Approach Control Center
Seattle Air Route Traffic Control Center
Washington Air Route Traffic Control Center
Western Service Center

Other Organizations
Best Value Technologies, Inc.
Office of the Secretary of Transportation
Raytheon Technical Services Company, LLC




Exhibit B. Acti vities Visited or Contacted
                                                           24




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


Office of Acquisition and Procurement Audits
Terry Letko                             Program Director

Dory Dillard-Christian                  Project Manager

Amanda Watson                           Senior Auditor

Rachel Miller                           Senior Auditor

Troyling Harris                         Auditor

Tashaun Ross                            Analyst

Christina Lee                           Writer-Editor



Office of Aviation Audits
Robert Romich                           Program Director

Adrienne Williams                       Project Manager

Doneliya Deneva                         Senior Auditor

Benjamin Huddle                         Senior Analyst

Andrew Sourlis                          Analyst




Exhibit C. Major Contributors to This Report
                                                                                                25


APPENDIX. AGENCY COMMENTS


                      Federal Aviation
                      Administration

Memorandum
Date:           November 27, 2013
To:             Mary Kay Langan-Feirson, Assistant Inspector General for Acquisition
                and Procurement Audits
From:           H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1

Subject:        Federal Aviation Administration’s (FAA) Response to Office of Inspector
                General (OIG) Draft Report: ATCOTS Contract Management to Achieve
                its Air Traffic Controller Training Goals


The FAA continues to improve the Air Traffic Controller Optimum Training Solutions
(ATCOTS) contract management, oversight, and maintenance of costs under the current contract
structure. Some of these improvements are: 1) contained cost during contract year six to within
the baseline award value; 2) implemented an award fee structure that motivates the contractor to
control costs; 3) implemented a new process for defining monthly requirements; 4) realigned the
Terminal and En route domains to better align services; 5) designated two Quality Reliability
Officers (QRO’s) that are assigned to support the program by conducting quality audits of
services being provided by the contractor, setting up quality standards and ensuring compliance
with FAA policies and standards; 6) and, improved communications with the field and contractor
to identify training requirements, schedules and resources. These improvements have been
instrumental in improving the oversight of the ATCOTS program. The FAA is continuing to
explore all available options to improve air traffic controller training, and our goal is to award a
new contract to replace ATCOTS as early as fall 2014.

While the FAA understands the source of OIG statistics on increased time to certification, the
FAA believes that a differing methodology based upon actual time spent in training is a more
valuable metric as it applies to the evaluation of training performance, as opposed to using
training duration. Training programs and segments of training offered to meet the requirements
established for a certification can have durations that vary significantly based on the employee’s
entry level education, employee’s aviation experience, facility traffic complexity, and facility
training opportunities. Training duration can be affected by many factors unrelated to the
performance of the technical training system including the ATCOTS contract.




APPENDIX. AG ENCY COMMENTS
                                                                                                  26



RECOMMENDATIONS AND RESPONSES

Recommendation 1: Create a training plan that clearly defines all air traffic controller training
requirements, including proficiency training and training for new systems. The plan should also
specify the training requirements to be performed by FAA certified professional controllers and
those to be performed by the contractor.

FAA Response: Concur. The FAA ATCOTS Program Office, in collaboration with Raytheon,
has developed, completed and rolled out a new training planning tool in August 2013 where
ATCOTS services have been deployed in the field. This training planning tool integrates the
Rolling Wave Planning Book and the Training Staffing Support Plan(TSSP) incorporates
training schedules, and identifies resources by category for budget planning to support training
requirements in the field.

The planning tool features a one month look-back (status), current month activities, and a two
month look ahead and is updated on a monthly basis. The planning tool identifies developmental,
proficiency, certification and recurrent training, and the resources required to perform these
activities. Last month, the tool was briefed to the field facilities and requirements are currently
being collected for the first three months (Sep, Oct, Nov) for Performance Year 6 (PY6) which
began on September 9, 2013.

In addition, the Program Office is currently examining how to augment/update the planning tool
to capture training requirements to be performed by FAA certified professional controllers at all
facilities. The FAA will provide a progress update of this effort by August 31, 2014.

Recommendation 2: Implement a procedure to identify costs related to internal training
performed by FAA controllers, such as a timekeeping code to record hours that controllers
spend teaching classroom and simulator training, including any overtime hours accrued for
training.

FAA Response: Concur. The Report Analysis and Distribution (RAD) system currently
captures this data. The RAD system is located on an internal FAA website and allows reports to
be generated on controller hours spent performing various functions. Labor Distribution
Reporting (LDR) codes were established in 2005and are in place. We are able to identify cost for
controller hours spent teaching classroom, conducting simulation training as well as overtime.
Based upon these actions, the FAA is requesting closure of this recommendation.

Recommendation 3: Develop a plan to assess internal resources and verify that controllers
will be available to teach training at each facility.

FAA Response: Concur. The FAA's Controller Workforce Plan identifies the staffing ranges at
each facility and what can be supported. FAA Order JO 3120.4N, Air Traffic Technical
Training, effective September 30, 2013, Chapter 2, Roles and Responsibilities, specifies that a
facility Air Traffic Manager must, as part of routine duties to administer the training program,
ensure that resource requirements are submitted to the appropriate Service Center. The Service
Centers will then submit resource requirements to the appropriate Service Unit. In compliance
with the references listed, the FAA believes that a plan to assess internal resources is currently in




APPENDIX. AG ENCY COMMENTS
                                                                                                   27


place and satisfies the intent of this recommendation. Accordingly, the FAA requests closure of
this recommendation.

Recommendation 4: Update costs estimates, and determine whether (a) training requirements
can be met within the current contract value of $859 million, (b) the acquisition should be re-
baselined and/or re-competed, or (c) the remaining contract options should be exercised.

FAA Response: Concur. The FAA updates the cost estimates on an annual basis. According
to the ATCOTS Contract, Section H.43, the FAA issues an anticipated schedule of training
services required for twelve (12) months. This annual work plan is used for planning purposes
only and defines the number and types of students, location of training, and when students need
to be trained. Updates are provided on a monthly basis. Over the last year, the FAA has
communicated to the service provider discrete field training demands requiring the use of
supplemental staffing services and fosters the in-house development of best practices for
training quality and consistency. This information is aligned with the invoices submitted by the
service provider. In September 2012, the FAA exercised the first option period as the best
available path forward to allow for uninterrupted training services to the Academy and field
facilities. In support of exercising the first option period, the FAA has committed to enforcing
the pre-negotiated contract award values to remain within the $859 million. Compliance is
achieved by the verification and validation of invoices received by the service provider along
with the reviews and comments to the Contract Data Requirement List (CDRL 007) and the
TSSP, which are submitted to the service provider on a monthly basis. Before the last option
period is exercised, the FAA is required to verify the continued need for the training services,
ensure sufficient funds are available, and evaluate if the contractor’s performance was
satisfactory. The FAA will continue to assess needs centered on air traffic controllers and
determine the best acquisition vehicle to fulfill the need. The FAA believes it has met the intent
of this recommendation and request it be closed.

Recommendation 5: Implement procedures to hold FAA oversight staff accountable for
overseeing contractor performance at the facilities, including completing required semi-annual
performance evaluations.

FAA Response: Concur. According to the ATCOTS contract (Section E.2), all deliverables
under this contract are subject to review and inspection by the Contracting Officer (CO) or
his/her designee. Effective May 2012, the FAA adopted the Federal Acquisition Institute’s
concept of recognizing various levels of contract complexity and announced changes to the
Contracting Officer’s Representative (COR) certification program to match varying levels of
complexity. The roles and responsibilities of the COR are outlined in the designation letter
issued by the CO. The letter, signed by both the CO and COR, acknowledges the COR’s
acceptance of the responsibility to act as the CO’s authorized representative in administering a
contract and includes the COR’s responsibility to complete semi-annual evaluations. Prior to
designation, each COR is required to schedule and attend training (initial and continuous
learning), prepare certification application prior to being nominated, and ensure that training
and associated documentation is current and accurate in the FAA’s COR database.
Subsequently, the Program Office (specifically the COR’s direct supervisor) nominates the
COR and provides documentation of the CORs certification before the designation letter is
issued. Each COR has the responsibility for the technical monitoring of the service provider’s




APPENDIX. AG ENCY COMMENTS
                                                                                                 28


performance and assessing, recording, and reporting compliance with the terms and conditions
of the contract.

In July 2012, the Program Office implemented an ATCOTS online tool, which enables a COR
to verify and validate hours performed by the service provider. The hours are directly extracted
from the invoice received from the service provider on a bi-weekly basis, and the CORs are
expected to validate the service provider’s information. This validation is also accomplished
during the required semi-annual performance evaluations.

Additionally, the CO also designates two Quality Reliability Officers (QROs). The QROs
provide surveillance to the overall training requirements under the contract and have the
authority to verify that the contractor’s quality plan complies with contract requirements. In
July 2012, the FAA Program Manager released a Quality Assurance Surveillance Plan. This
plan provides the FAA Integrated Product Team (e.g., CO, COR, QRO,) guidelines to monitor
required performance standards and expected outcomes for the service provider. Based upon
these actions, the FAA requests this recommendation to be closed.

Recommendation 6: Develop a process to ensure the contract files are maintained as required
by FAA’s Acquisition Management System.

FAA Response: Concur. Prior to January 2012, the files containing all contractual documents
were maintained in hard copy form in binders within locked file cabinets. After January 2012,
the FAA Contracts organization began to maintain the ATCOTS contract file online using the
Knowledge Sharing Network (KSN). The Contracts organization has compiled a complete
contract file, which is currently maintained on the ATCOTS KSN. The documents include, but
are not limited to: a copy of the living contract; contract modifications; incoming and outgoing
correspondence; tracking log of all outgoing correspondence; CDRLs submitted by the
contractor; invoices; COR designation letters; and other contractual documents. Based on these
actions, the FAA requests that this recommendation be closed.

Recommendation 7: Determine whether training innovations should be funded under the
ATCOTS contract or competed under a separate contract, and modify the ATCOTS contract to
reflect this determination.

FAA Response: Concur. The FAA maintains the option and evaluates the ATCOTS contract
and other contract options prior to funding training development initiatives.

The ATCOTS contract is a performance-based service acquisition contract that includes
incentive and award fee provisions. This strategy was geared toward adopting the best
commercial practices, gaining greater access to technological innovations, and maximizing
competition to achieve greater savings and efficiencies for all air traffic training programs.

According to the terms and conditions of the current ATCOTS contract, the contractor must
identify potential enhancements to training processes and submit Process Improvement Change
Proposals (PICPs) (CDRL 006). The PICP must include the contractor’s proposed process
improvements, transition approaches, performance metrics, and the resulting contractor
implementation plan. Any adopted PICP must outline an orderly transition to ensure the




APPENDIX. AG ENCY COMMENTS
                                                                                                    29


continuity of training operations while implementing the proposed change. The implementation
plan schedule must include the timeframe for all tasks and activities required to implement the
proposed training enhancement. Any proposed costs, non-recurring or recurring, associated
with the proposed change are expected to be presented in the Work Breakdown Structure format
and included in the PICP. This includes any proposed cost savings that results from the change.
Cost savings should be applied against contract line item number (CLIN) X001 to reflect a
reduction of staffing resources initially accounted for in the target price. As the years of
operations continue, efficiencies in training service delivery should be realized along with
greater cost savings. Therefore, based upon the current terms and conditions of the ATCOTS
contract, no modification to the existing contract is required and therefore FAA request closure
for this recommendation.

Recommendation 8: Determine whether FAA should eliminate the cost incentive fee and
modify the contract to a cost-plus-award-fee type.

FAA Response: Concur. The FAA reviewed this contract and determined that the ATCOTS
contract should remain an incentive fee-based contract. As stated in FAA’s response to
recommendation 7 above, this strategy was geared towards adopting the best commercial
practices, while gaining greater access to technological innovations and maximizing
competition to achieve greater savings and efficiencies to the overall air traffic training
programs.

The OIG’s recommended contract type, cost-plus-award-fee, provides for a full award with no
penalties.

The current contract calls for a cap on awards and does not allow the service provider to
maximize the incentive fee unless the acceptable performance levels and associated
performance measures are also maintained. The service provider is not eligible for any
increases in incentive fee if the contractor does not receive at least a “Satisfactory” rating in all
award fee determinations made during the individual CLIN performance period. Having made
this determination, the FAA requests that this recommendation be closed.

Recommendation 9: Modify the award fees to (a) develop performance measures that
motivate contractors to achieve program goals and (b) ensure that fees are paid only for
performance that links to key training goals and does not conflict with other contract objectives.

FAA Response: Concur. Initial award fees were established at contract award in September
2008. In July 2012, draft performance metrics for award fee period 8 were provided to the DOT
OIG for review prior to submission to the service provider. Consistent with contract objectives,
period 8 performance metrics were crafted to motivate the service provider to improve quality
and consistency of training delivery, reduce the time to train, and leverage best practices and
innovation within the yearly target cost. Accordingly, the FAA requests that this
recommendation be closed.




APPENDIX. AG ENCY COMMENTS
                                                                                               30


Recommendation 10: Perform an integrated baseline review to (a) identify the training
requirements that should be included in the budget baseline; (b) identify the risks for
maintaining the budget and plans for adequately mitigating those risks; and (c) determine
whether resources are sufficient for completing the work.

FAA Response: Concur In Part. The FAA’s Program Office is currently conducting informal
reviews of the program and has implemented corrective actions through programmatic changes
and contract modifications, which have better aligned contractor services with fundamental FAA
needs. Since the start of these reviews, the FAA has implemented changes, which have resulted
in increased program effectiveness and has reduced contract costs to within the budget baselines.
Based upon these reviews, the Program Office does not believe that there are any benefits to be
gained from undertaking an integrated baseline review at this time. The FAA believes that it has
satisfied the intent of the OIG's recommendation and requests the closure of this
recommendation.

Additional Actions Required: In addition, please indicate whether you agree that $14.1 million
in funds can be put to better use by eliminating the use of incentive fees and improving the award
fees for the remainder of the contract.

FAA Response: The FAA does not agree that the funds could be put to better use elsewhere.
Under the terms of the contract, the FAA and Raytheon will have to negotiate any change in the
contract fee structure and come to a bilateral decision. The incentive fee provisions of the
contract are the best means to encourage the contractor to reduce costs.




APPENDIX. AG ENCY COMMENTS
